                                                                            (No. 2003-I-0015)


               United States Department of the Interior
                                 Office of Inspector General
                                     Washington, D.C. 20240




                                                                             February 6, 2003

U.S. General Accounting Office
Attn: Mr. John Fretwell
441 G. Street, NW Room 5970
Washington, DC 20548

Department of Treasury
Attn: Director, Financial Reports Division
Financial Management Services
Room 509B
3700 East-West Highway
Hyattsville, MD 20782


Dear Sir or Madam:

      Enclosed is the report for the Department of the Interior on “Applying Agreed-Upon
Procedures for Intragovernmental Activity and Balances.” The report was prepared by KPMG
LLP (KPMG) under contract with the Department of the Interior, Office of Inspector General.

        KPMG is responsible for the report, dated February 6, 2003. We monitored the progress
of the engagement at key points, reviewed KPMG’s report and selected related working papers,
and inquired of its representatives. We continue to review KPMG’s work as the final
information is provided to us. Our review to date has disclosed no instances where KPMG did
not comply, in all material respects, with the Government Auditing Standards.

      If you have any questions concerning this matter, please contact me at (202) 208-5512 or
Mr. Curtis Crider, Director of Financial Audits, at (202) 208-5724.


                                             Sincerely,



                                             Roger La Rouche
                                             Assistant Inspector General
                                              for Audits


Enclosure
                                                                                            ENCLOSURE

                   2001 M Street, NW
                   Washington, DC 20036




             Independent Accountants’ Report on Applying Agreed-Upon Procedures for
                             Intragovernmental Activity and Balances


Office of Inspector General,
U.S. Department of the Interior

We have performed the procedures enumerated in Exhibit A (attached), which were stated in the U.S.
Department of the Treasury’s (Treasury) Federal Agencies’ Centralized Trial Balance System (FACTS)
guidance, dated August 16, 2002, to assist the Treasury Financial Management Service (FMS) in the
preparation of, and the U.S. General Accounting Office (GAO) in the audit of, the consolidated financial
statements of the U.S. Government, and to assist the U.S. Department of the Interior (Interior) and Office
of Inspector General (OIG) in evaluating Interior’s assertion that it properly reported intragovernmental
activity and balances in the Interior’s consolidated financial statements as of and for the year ended
September 30, 2002, and in its FACTS I submission to Treasury. Interior’s management is responsible for
the proper accounting, presentation, and reporting of its consolidated financial statements and reporting of
information to Treasury.

This agreed-upon procedures engagement was conducted in accordance with attestation standards
established by the American Institute of Certified Public Accountants. These procedures were agreed to by
the Office of Management and Budget (OMB), FMS, GAO, Interior, and OIG. The sufficiency of these
procedures is solely the responsibility of OMB, FMS, and GAO. Consequently, we make no
representations regarding the sufficiency of the procedures described in Exhibit A either for the purpose for
which this report has been requested or for any other purpose. The procedures we performed and our
associated findings are presented in Exhibit A.

We were not engaged to, and did not, conduct an examination of the information addressed herein, the
objective of which would be the expression of an opinion on such information. Accordingly, we do not
express such an opinion. Had we performed additional procedures, other matters might have come to our
attention that would have been reported to you.

This report is intended solely for the information and use of OMB, FMS, GAO, Interior, and OIG, and
should not be used by those who have not agreed to the procedures and taken responsibility for the
sufficiency of the procedures for their purposes.




February 6, 2003




                 KPMG LLP. KPMG LLP, a U.S. limited liability partnership, is
                 a member of KPMG International, a Swiss association.
                                                                                      Exhibit A
                               U.S. Department of the Interior
                                Agreed-Upon Procedures for
                              Intragovernmental Transactions


Procedures and Findings

Procedure 1

Review the electronic file provided by the Department’s Chief Financial Officer (CFO) of the
“Fiscal Year End 2002 CFO Representations for Federal Intragovernmental Activity and
Balances” and copies of the ”Confirmations of Intragovernmental Account Balances.” For each
“Yes” response for Fiduciary Categories and Non-Fiduciary Categories perform the following
steps:

       Compare the amounts in such confirmations to supporting documentation. Indicate if no
       differences were found. Clearly explain any differences.

       Compare the adjustments, if any, identified in the reconciliation process that require
       recognition on the books of the reporting entity (rather than the books of the trading
       partner) to documentation supporting recording of such amounts in the Department’s
       financial records. Indicate if no differences were found. Clearly explain any differences.

Finding 1:

1. We obtained Interior’s “FYE ’02 CFO Representations for Federal Intragovernmental
   Activity and Balances” and copies of the related confirmations. The “FYE ’02 CFO
   Representations for Federal Intragovernmental Activity and Balances” indicated that
   Interior completed the reconciliations for the Fiduciary Categories, but did not complete the
   reconciliations for the Non-Fiduciary Categories. In addition, we did not receive the
   fiduciary confirmations for Treasury Fund Symbols 14116029 – Alaska Mineral Lease
   Revenue, 14168147 - Aquatic Resources Trust Fund, or 14176705 – OCS Lands Act, Bonus
   Bids. Interior explained that Treasury assigned these reconciliations to other Federal
   entities.

2. For each “Yes” response for the Fiduciary Categories, we compared the Department’s
   balances on the “Confirmations of Intragovernmental Account Balances” to the
   corresponding amounts in Interior’s September 30, 2002 general ledger supporting the
   audited financial statements for fiscal year 2002, and identified the following differences:

                                Amount per
                                 Interior’s
                    SGL        General Ledger        Amount per
Fund Symbol       Account                           Confirmation     Difference      Explanation
14X5240000       5310G(20)           $522,884            $516,044          $6,840        A
14X4163000       6310G(20)                  -             782,944       (782,944)        A
14X8030000       1340G(20)              9,129               9,364           (235)         B
14X8030000       1610G(20)         24,147,341          29,167,159     (5,019,818)         B
14X8030000       5310G(20)            572,960             648,779        (75,819)         B
14X5265000       1340G(20)            146,792             151,483         (4,691)         B



                                                1
                                                                            Exhibit A, Continued
                                 U.S. Department of the Interior
                                  Agreed-Upon Procedures for
                                Intragovernmental Transactions

                                 Amount per
                                  Interior’s
                    SGL         General Ledger        Amount per
Fund Symbol       Account                            Confirmation      Difference      Explanation
14X5265000       1610G(20)          63,250,400         154,573,199     (91,322,799)         B
14X5265000       5310G(20)           1,477,271           2,379,208      (1,261,937)         B
14X5265000       7110G(20)                   -               1,406          (1,406)         B
14X5265000       7210G(20)                   -              21,313         (21,313)         B

We communicated the differences noted above to Interior and requested explanations for the
differences. We received the following explanations from Interior:

A. Interior did not provide an explanation for this difference.

B. The difference is a result of Interior excluding non-federal funds from the general ledger that
   Interior included in the confirmation. These funds represent Indian and Special Trust Funds
   that are not assets of the Federal government and therefore are not part of the Interior
   reporting entity.

No additional procedures were performed with respect to management’s representations as to the
explanations for the differences.

No adjustments were made to Interior’s financial records as a result of the reconciliations.

Procedure 2

Review the electronic file provided by the Department’s CFO in the “Fiscal Year End 2002 CFO
Representations for Federal Intragovernmental Activity and Balances.” If the CFO responded
“Yes” to item 10 under the section entitled “CFO Procedures for Federal Intragovernmental
Activity and Balances” in the Federal Agencies’ Centralized Trial Balance System (FACTS)
guidance, dated August 16, 2002, compare the intragovernmental activity and balances per the
financial records supporting the audited agency consolidated financial statements for fiscal year
2002, as to the amounts and U.S. Standard General Ledger (SGL) accounts with the final amounts
and SGL accounts submitted to the U.S. Treasury Financial Management Service (FMS) in its
FACTS I and/or FACTS NOTES for the fiscal year. Indicate if no differences were found.
Clearly explain any differences.

Finding 2:

We obtained the “FYE ’02 CFO Representations for Federal Intragovernmental Activity and
Balances.” The CFO responded to item 10 under the section entitled “CFO Procedures for
Federal Intragovernmental Activity and Balances” in the FACTS guidance dated August 16,
2002, as “Yes.”

We compared the amounts of intragovernmental activity and balances, by SGL account, from
Interior’s final general ledger supporting Interior’s audited consolidated financial statements for



                                                 2
                                                                           Exhibit A, Continued
                                U.S. Department of the Interior
                                 Agreed-Upon Procedures for
                               Intragovernmental Transactions

fiscal year 2002, excluding intradepartmental activity and balances, to the corresponding
amounts and SGL accounts, reported to FMS in Interior’s final FACTS I and/or FACTS I
NOTES, and identified the following differences:


                        Amount per
                          Interior’s         Amount per
      SGL Account      General Ledger         FACTS I             Difference      Explanation
        5100G                $3,291,294         $2,403,590          ($887,704)         C
        5109G                    32,944             31,210              (1,734)        C
        5200G            2,317,835,329       1,397,683,759       (920,151,570)       C, D
        5310G              129,440,508         129,418,693             (21,815)        C
        5720G              913,355,430         282,201,125       (631,154,305)         C
        5730G              688,558,858          61,687,477       (626,871,381)         C
        5740G            1,971,461,239           1,467,849     (1,969,993,390)         C
        5745G            2,170,197,567         173,032,776     (1,997,164,791)         C
        5750G              157,752,714          54,824,191       (102,928,523)         C
        5755G              777,411,979         407,332,465       (370,079,514)         C
        5760G                93,810,785                  0        (93,810,785)         C
        5765G              569,854,328         208,739,013       (361,115,315)         C
        5790G                 3,203,523          3,031,098            (172,425)        C
        5900G              877,945,019          46,931,655       (831,013,364)         C
        5990G            6,874,629,642       4,416,545,275     (2,458,084,367)         C
        5991G              313,280,700         495,223,397         181,942,697         C
        6100G            1,853,784,431         958,281,984       (895,502,447)         C
        6790G                    75,281             68,424              (6,857)        C

We communicated the differences noted above to Interior and requested explanations for the
differences. We received the following explanations from Interior:

C. These differences are a result of Interior recording an entry after the submission of the
   original FACTS I data. The entry for the difference was submitted to Treasury on January 30,
   2003. This entry corrected the FACTS I elimination data on certain revenue and expense
   accounts and corrected the trading partner used on certain custodial revenue transactions
   from federal to public.

D. Interior did not provide an explanation for $3,486,000 of this difference.




                                                3
